                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A03030013                                                                    Page 1 of 2



     The case allegation is breach of reviewer confidentiality. The complainant1served on an NSF
     panel, and shortly after his return home was contacted by an individual2(the caller) by email to
     solicit his opinions of the review process at NSF. The complainant knows the caller only by
     reputation; they share a mutual interest in education reform. The complainant believes that he
     and the caller may have divergent views on proper direction for educational reform.

     In describing his panel service for NSF, the complainant stated that a list of all panel reviewers
     was distributed to the collected panelists (approximately 100 people) at an initial gathering. This
     list included the names of all reviewers serving on the 9-10 concurrent program panels, and
     therefore included names of members of those panels other than his own. The existence and
     distribution of this list to all panelists was subsequently confirmed by NSF program officers.
     The program officers3also discussed the presence in their community of two divergent groups of
     educational reformers, and the sometimes contentious nature of interactions between them. The
     program officers implied that distribution of the complete list of panelists was an effort to defuse
     any charge of favoritism. The program officers, through unknown means, were aware of the
     allegation, and the identity of the complainant. As a result, the program officers discontinued
     their distribution of comprehensive lists of panelists at later meetings of the program panels.

     The caller is not the subject of this case, as it was unclear that restrictions of NSF reviewer
     confidentiality were known to him at the time that contact with the complainant was made. The
     caller did subsequently serve on an NSF panel in the same overall program as the complainant,
     and signed the confidentiality agreement at that time, as was made clear when the caller was
     contacted by phone to gather additional information on this case. The caller stated that he was
     informed of the complainant's service on the NSF review panel by someone (the purveyor) who
     served on one of the panels that met at the same time as the complainant's. The purveyor
     recognized the complainant's name from the list that had been included with the panelist's
     package. The caller emphasized that the purveyor had not served on the same panel as the
     complainant, and had had no personal interaction with the complainant at the meeting. The
     caller declined to identify the purveyor. However, the caller volunteered to contact the purveyor
     and suggest that the person contact NSF OIG directly by email or by phone to discuss the issue.
     However, such contact has not occurred, and the identity of the purveyor remains unknown.



     ' redacted.
      redacted.
     ' redacted.
                                           OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM




The purveyor could be any one of the approximately 100 panelists that received the list at the
initial meeting of the reviewer cohort. The program officers have discontinued their practice of
distributing a comprehensive reviewer list . The caller is also aware of the confidentiality
restrictions, both from subsequent personal service on an NSF panel, and as a result of the phone
conversation with NSF OIG. A follow-up letter to the caller with a reiteration of those
restrictions will be generated. Although it cannot be assured, the same message will likely be
transferred to the purveyor, emphasizing the confidentiality agreement that the purveyor
presumably signed as a reviewer. These actions are sufficient to protect NSF'S interests.

Accordingly, this case is closed.
